No.

 

In the

Supreme Court of the United States

ERNEST VERDUGO, Petitioner
Vv.

UNITED STATES OF AMERICA, Respondent

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

Motion for Leave to Proceed in Forma Pauperis

Petitioner asks leave to file the attached petition for writ of certiorari to
the United States Court of Appeals for the Ninth Circuit without prepayment
of costs and to proceed in forma pauperis. Petitioner was represented by
counsel appointed in the trial court under the Criminal Justice Act, 18 U.S.C.

ยง3006A(b).
This motion is brought pursuant to Rule 39.1 of the Rules of the
Supreme Court of the United States.

Respectfully submitted,

CUAUHTEMOC ORTEGA
Federal Public Defender

DATED: October 1, 2021 By: V VA.
JOSHUA D. WEISS*
Deputy Federal Public Defender

Attorneys for Petitioner
*Counsel of Record
